                        U.S. Department of Agriculture

                           Office of Inspector General
                                     Southeast Region




             Audit Report

Animal and Plant Health Inspection Service
     Evaluation of the Implementation
 of the Select Agent or Toxin Regulations
                 Phase II




                               Report No. 33601-3-AT
                                       January 2006
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                    OFFICE OF INSPECTOR GENERAL

                                        Washington, D.C. 20250




January 17, 2006

REPLY TO
ATTN OF:       33601-3-At

TO:            W. Ron DeHaven
               Administrator
               Animal and Plant Health Inspection Service

ATTN:          William J. Hudnall
               Deputy Administrator for Marketing Regulatory Program
                 Business Services

FROM:          Robert W. Young /S/
               Assistant Inspector General
                 for Audit

SUBJECT:       Evaluation of the Implementation of the Select Agent or Toxin
               Regulations (Phase II)


This report presents the results of the subject audit. Your response to the report, dated
December 2, 2005, is included as exhibit A, with excerpts and the Office of Inspector General’s
(OIG) position incorporated into the Findings and Recommendations section of the report.

Based on your response, we have reached management decisions on Recommendations 2, 3, and
10. To achieve management decisions on Recommendations 1, 4, 5, 6, 7, 8, 9, 11, 12, and 13, we
need additional corrective actions as outlined in the OIG Position section of the report, following
each recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned and the timeframes for implementation of
those recommendations for which management decisions have not yet been reached. Please note
that the regulation requires that management decisions be reached on all recommendations
within a maximum of 6 months from report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff during the
audit.
Executive Summary
Animal and Plant Health Inspection Service Evaluation of the Implementation of the
Select Agent or Toxin Regulations Phase II, Audit Report No. 33601-3-At

Results in Brief                      After the events of September 11, 2001, the Government has taken a number
                                      of steps to strengthen homeland security. The Public Health Security and
                                      Bioterrorism Preparedness and Response Act of 2002 (Public Law 107-188,
                                      signed June 12, 2002), included provisions for enhancing controls over
                                      dangerous biological agents and toxins. The Act addressed the lack of
                                      authority for the Secretary of Agriculture to regulate possession of biological
                                      agents that, through acts of bioterrorism, could have a devastating impact on
                                      the domestic agricultural economy. 1 With passage of the Act, the Secretary of
                                      Agriculture was required to promulgate regulations to provide for the
                                      establishment and enforcement of standards and procedures governing the
                                      possession, use, and transfer of select agents or toxins, including security
                                      measures and controls to limit access to only those individuals that have a
                                      legitimate need to handle or use such agents or toxins. The Animal and Plant
                                      Health Inspection Service (APHIS) was delegated authority to administer the
                                      regulations for the U.S. Department of Agriculture.

                                      The objective of the audit was to evaluate APHIS’ implementation of
                                      regulations governing the possession, use, and transfer of biological agents and
                                      toxins. The audit was conducted in two phases. In Phase I (Audit No.
                                      33601-2-At), we evaluated the agency’s overall implementation of the
                                      regulations governing the possession, use, and transfer of biological agents and
                                      toxins. In Phase II, we made field visits to locations where select agents or
                                      toxins are used or stored to determine whether controls are in place and
                                      functioning as designed by examining registered entities’ compliance with the
                                      regulations. This report presents the results of Phase II of our review.

                                      We found that APHIS’ oversight and enforcement of regulations regarding the
                                      security over select agents or toxins needed strengthening. As we reported in
                                      Phase I of our review, 2 the agency had not fully implemented controls for
                                      enforcing safeguard and security measures to prevent access to dangerous
                                      biological agents and toxins, as required by legislation. During our fieldwork in
                                      Phase II, we found that APHIS had not ensured that entities were: fully
                                      complying with regulations regarding security plans; restricting access to select
                                      agents or toxins; training individuals authorized to possess, use, or transfer
                                      select agents or toxins; and maintaining current and accurate inventories. These
                                      weaknesses occurred because APHIS had not performed timely or adequate
                                      reviews to ensure that security measures were implemented in accordance with
                                      the regulatory requirements. As we reported in Phase I, APHIS initially

1
    House of Representatives Conference Report No. 107-481, dated May 21, 2002.
2
    Audit Report No. 33601-2-At, issued June 23, 2005.

USDA/OIG-A/33601-3-AT                                                                                           Page i
                                        reviewed registration applications only to ensure that a security plan was
                                        submitted before granting provisional registrations. The agency did not
                                        determine the adequacy of the plans. In Phase I, we also reported that APHIS’
                                        inspections of the entities were not thorough enough to determine whether
                                        security was adequate. As a result, select agents or toxins were vulnerable to
                                        potential theft or misuse.

                                        We found that APHIS had not updated its list of individuals authorized to
                                        access select agents or toxins. On October 8, 2004, APHIS provided us a
                                        current list of approved individuals granted access to select agents or toxins
                                        (authorized list). However, we found that the APHIS list did not always agree
                                        with the lists maintained by the registered entities. We found that 5 of the
                                        10 entities reviewed had lists that were different from APHIS’. The
                                        differences occurred because (1) APHIS did not update the lists when
                                        notified by the entities that certain individuals no longer had access to the
                                        select agents or toxins or (2) the entities did not notify APHIS of individuals
                                        no longer having access. As a result, APHIS does not have accurate
                                        information to use in monitoring registered entities’ compliance with
                                        requirements for restricting access to the select agents.

                                        APHIS had not adequately safeguarded sensitive security and personal
                                        information pertaining to individuals authorized access to possess, use, or
                                        transfer select agents or toxins. We identified two instances where
                                        information regarding authorized individuals was provided to the wrong
                                        registered entity. This occurred because of human error, which we attributed
                                        in part to the fact that APHIS had not developed a national database of
                                        registered entities. This database should contain critical information including
                                        the names of individuals authorized to access select agents at the particular
                                        entity. 3 Until the national database is developed, APHIS will have to continue
                                        to rely on a mix of manual records and computerized spreadsheets maintained
                                        separately while administering the select agent program. In addition, APHIS
                                        had not established internal controls, in the form of policies and procedures,
                                        to prevent such occurrences. As a result, there is a greater risk that sensitive
                                        information is inadvertently disclosed in violation of the Act.

                                        For our Phase I review, we reported that APHIS granted provisional
                                        registrations to entities without determining whether their security plans
                                        provided adequate safeguard and security measures. During our site visits in
                                        Phase II, we found that none of the 10 entities we reviewed had fully
                                        complied with the regulations. We selected 10 entities registered with
                                        APHIS, and performed site visits to test the entities’ compliance with the
                                        regulations and to determine whether security controls were adequate and
                                        functioning. We found that security plans (1) were not based on site-specific
                                        risk assessments as required, (2) did not address critical requirements in the

3
    This condition was identified in our Phase I report (Audit No. 33601-2-At).

USDA/OIG-A/33601-3-AT                                                                                           Page ii
                                          regulations, and (3) were not performance tested or reviewed and updated
                                          annually by the registered entities.

                                          Registered entities we visited expressed concerns regarding APHIS oversight,
                                          including inadequate guidance to implement the select agent rules, untimely
                                          review and response to required submissions, and insufficient timeframes for
                                          responding to APHIS inquires. Inadequate guidance and untimely reviews of
                                          security plans may have contributed to some of the deficiencies we identified.
                                          However, we noted that, in many cases, deficiencies were due to the entities
                                          not following regulatory requirements. Even though each had been inspected
                                          by APHIS for compliance with the regulations prior to our review, we
                                          identified a number of security deficiencies at the sites visited. 4 We found
                                          that registered entities:

                                          1.     did not adequately restrict access to select agents or toxins as required by
                                                 the regulations;

                                          2.     did not maintain adequate inventories of select agents; and

                                          3.     did not maintain adequate documentation concerning Biocontainment or
                                                 Biosafety and Security training.

                                          For our Phase I review, we reported that APHIS had not established policies
                                          and procedures to ensure that inspections of the registering entities’ security
                                          measures were consistent and thorough. Inspections performed by APHIS did
                                          not provide clear documentation concerning the nature or extent of
                                          deficiencies, and did not always conclude as to whether security measures
                                          implemented by the registered entities were adequate. We also reported that
                                          although some inspections revealed deficiencies, APHIS did not always
                                          notify the registered entities of the results of the inspections and address, in
                                          writing, the nature of the deficiencies or the requirements for followup.

                                          Because the Act requires APHIS and the Center for Disease Control (CDC)
                                          to develop and implement procedures to share responsibilities for inspecting
                                          entities that handle overlap agents, we met with officials from the Health and
                                          Human Services (HHS) Office of Inspector General (OIG) to coordinate our
                                          recommendations. The HHS-OIG conducted reviews of entities registered
                                          with CDC and identified issues similar to those identified during our reviews
                                          of entities registered with APHIS.

Recommendations
in Brief                                  We are recommending that APHIS re-inspect registered entities to ensure
                                          compliance with regulations regarding the security over select agents. The
                                          inspections should be done using formal written procedures to ensure
                                          consistent and thorough reviews. In developing policies and procedures for
4
    Deficiencies were discussed with responsible officials at entities visited.

USDA/OIG-A/33601-3-AT                                                                                                Page iii
                   reviewing and inspecting entities’ compliance with the regulations, APHIS
                   should include steps to:

                   •      ensure registered entities base their security plans on a site-specific
                          risk analysis;

                   •      verify that the entities’ security plans have thoroughly addressed all
                          critical areas identified by the regulations;

                   •      verify that entities are conducting and documenting annual
                          performance tests of their security plans, and are updating plans based
                          on the results of the performance tests, drills, or exercises;

                   •      compare its list of authorized individuals with the names of
                          individuals having access to areas with select agents;

                   •      identify and examine all areas where select agents are used or stored
                          to ensure that access to those areas are properly secured;

                   •      verify that the entities have established and implemented inventory
                          controls and perform tests to see that inventories are accurate and up
                          to date; and

                   •      verify that the entities have provided annual training, including
                          required security training, to all individuals authorized to access select
                          agents, and have documented the training as required.

                   We are also recommending that APHIS develop and implement written
                   policies and procedures to ensure authorized lists are accurately and promptly
                   updated. The procedures should include periodically disseminating the lists to
                   registered entities and requiring the entities to verify APHIS’ records, and
                   either provide corrections or attest to the accuracy of the list. Additionally,
                   we are recommending that APHIS develop and implement internal controls
                   designed to prevent the release of sensitive security information associated
                   with registered entities.

Agency Response    APHIS provided a written response to the official draft report on
                   December 2, 2005. We have incorporated applicable portions of the response
                   into the Findings and Recommendations section of this report. The agency
                   response is included as exhibit A.

OIG Position       Based on your response, we have reached management decisions on
                   Recommendations 2, 3, and 10. To achieve management decisions on
                   Recommendations 1, 4, 5, 6, 7, 8, 9, 11, 12, and 13, we need additional
                   corrective actions as outlined in the OIG Position section of the report,
                   following each recommendation.

USDA/OIG-A/33601-3-AT                                                                       Page iv
Table of Contents
Executive Summary .................................................................................................................................i

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1: APHIS Controls Over the Select Agent Program ........................................................ 4

        Finding 1             APHIS Did Not Ensure That Registered Entities Had Developed and
                              Implemented Adequate Security Measures............................................................. 4
                                  Recommendation 1 .......................................................................................... 6
        Finding 2             APHIS Had Not Kept Up-to-date Data Pertaining to Individuals Who Have
                              Access to Select Agents or Toxins .......................................................................... 8
                                  Recommendation 2 ........................................................................................ 10
        Finding 3             APHIS Had Not Properly Safeguarded Sensitive Data Regarding
                              Individuals Authorized to Possess, Use, and Transfer Select Agents or
                              Toxins.................................................................................................................... 10
                                  Recommendation 3 ........................................................................................ 12

    Section 2: Registered Entities’ Compliance With Select Agents or Toxin Regulations ........... 13

        Finding 4             Biosafety/Biocontainment and Security Plans Did Not Comply With
                              Regulatory Requirements ...................................................................................... 14
                                  Recommendation 4 ........................................................................................ 19
                                  Recommendation 5 ........................................................................................ 20
                                  Recommendation 6 ........................................................................................ 21
                                  Recommendation 7 ........................................................................................ 21
        Finding 5             Registered Entities Did Not Adequately Restrict Access to Select Agents or
                              Toxins As Required by the Regulations................................................................ 22
                                  Recommendation 8 ........................................................................................ 25
                                  Recommendation 9 ........................................................................................ 26
                                  Recommendation 10 ...................................................................................... 26
        Finding 6             Registered Entities Did Not Maintain Adequate Inventories of Select
                              Agents.................................................................................................................... 27
                                  Recommendation 11 ...................................................................................... 29
                                  Recommendation 12 ...................................................................................... 29
        Finding 7             Registered Entities Did Not Maintain Adequate Documentation Concerning
                              Biocontainment/Biosafety and Security Training ................................................. 30
                                  Recommendation 13 ...................................................................................... 31

Scope and Methodology........................................................................................................................ 33

Exhibit A – Agency Response .............................................................................................................. 35


USDA/OIG-A/33601-3-AT                                                                                                                           Page v
Background and Objectives
Background                            Plant and animal biological agents and toxins are considered “select” agents
                                      if they appear on a list prepared by the U.S. Department of Agriculture
                                      (USDA), and published in the Federal Register in accordance with the Public
                                      Health Security and Bioterrorism Preparedness and Response Act of 2002
                                      (Public Law 107-188) (the Act). The Agricultural Bioterrorism Protection
                                      Act of 2002 5 provides for the regulation of those agents and toxins that have
                                      the potential to pose a severe threat to animal or plant health, or to animal or
                                      plant products.

                                      The Act also provides for the regulation of biological agents and toxins listed
                                      as dangerous by the Department of Health and Human Services (HHS).
                                      Where both HHS and USDA list the same agents, known as overlap agents,
                                      the Act provides for interagency coordination between the two departments.
                                      The Centers for Disease Control and Prevention (CDC) has responsibility for
                                      enforcing the Act on behalf of HHS; the Animal and Plant Health Inspection
                                      Service (APHIS) has responsibility for enforcing the Act on behalf of USDA.

                                      The Act also required USDA’s Secretary to establish:

                                      •           safety requirements for select agents, ensuring that appropriate skills
                                                  exist to handle the agents and that proper laboratory facilities are
                                                  available to contain and dispose of them;

                                      •           security requirements to prevent access to select agents for use in
                                                  domestic or international terrorism or for any other criminal purpose;
                                                  and

                                      •           requirements to protect animal and plant health, and animal and plant
                                                  products in the event of a transfer of a select agent.

                                      The Act requires all persons in possession of any select biological agent or
                                      toxin, including those select agents listed by CDC, to notify CDC or the
                                      Secretary of Agriculture of such possession. APHIS published the first list of
                                      select agents or toxins as an interim rule in the Federal Register in
                                      August 2002. The notification forms were due to APHIS no later than
                                      October 11, 2002.

                                      APHIS published the final list of select agents or toxins on December 13,
                                      2002. The list of plant agents appeared in 7 Code of Federal Regulations
                                      (CFR) 331 and the list of overlap and animal agents appeared in 9 CFR 121.


5
  Title II, subtitle B, of the Public Health Security and Bioterrorism Preparedness and Response Act of 2002, is cited as the “Agricultural Bioterrorism
Protection Act of 2002.”
USDA/OIG-A/33601-3-AT                                                                                                                             Page 1
                   Both regulations established safety, security, and transfer requirements for
                   the select agents.

                   The Act required that APHIS publish an interim final rule for carrying out the
                   safeguard and security measures within 180 days of passage of Public Law
                   107-188. The interim final rule, published on December 13, 2002, provided
                   the regulations that registered entities were required to follow at the time of
                   our site visits. The interim final rule became effective on February 11, 2003.
                   Our review included an examination of the entities’ compliance with the
                   interim final rule. On March 18, 2005, APHIS adopted as a final rule, with
                   changes, the interim final rule. The final rule promulgated regulations that
                   became effective on April 18, 2005. The final rule provided clarification for
                   issues such as inventory control requirements for select agents, and state that
                   additional guidance will be forthcoming for issues such as security required
                   for select agents or toxins.

                   One other requirement set forth by the Act (and repeated as regulation in the
                   Federal Register) was that all entities possessing, using, or transferring select
                   agents must register with the appropriate regulatory agency, APHIS or CDC.
                   Entities with overlap agents could register with either agency. As part of the
                   registration process, the entities’ responsible official (RO), the alternate RO, the
                   entity, and—where applicable—the individual who owns or controls the entity
                   must undergo a security risk assessment by the Criminal Justice Information
                   Services (CJIS) Division of the Federal Bureau of Investigation (FBI).
                   Moreover, those individuals identified by an entity as having a legitimate need
                   to handle or use select biological agents or toxins must undergo a security risk
                   assessment by the CJIS Division.

                   To minimize the disruption of research and educational projects that were
                   underway as of the effective date of the regulations (February 11, 2003), APHIS
                   and CDC established a phase-in period that gave individuals and entities until
                   November 12, 2003, to reach full compliance with the regulations. The phase-in
                   dates were as follows:

                   •       By March 12, 2003, the RO was to submit the registration application
                           package to the regulatory agency. The official was also to transmit to
                           the Attorney General the names of the RO, the entity, and the
                           individual who owned the entity.

                   •       By April 11, 2003, the RO was to submit to the Attorney General the
                           names of all the individuals with the entity that had a legitimate need
                           to use the select agents.

                   •       By June 12, 2003, the RO was to submit to APHIS the security
                           section of the entity’s security plan.


USDA/OIG-A/33601-3-AT                                                                          Page 2
                   •      By September 12, 2003, the RO was to implement the security section
                          of the entity’s Biocontainment/Biosafety and Security Plan and
                          provide security training in accordance with regulations.

                   •      By November 12, 2003, the registration application process was to be
                          complete and the entity in full compliance.

Objectives         The primary objective of this audit was to evaluate APHIS’ implementation of
                   regulations governing the possession, use, and transfer of biological agents and
                   toxins. For this phase, we conducted field visits to locations where select agents
                   or toxins are used or stored to determine whether established controls are
                   functioning as designed by examining registered entities’ compliance with the
                   regulations, as well as assess APHIS’ oversight of the entities.




USDA/OIG-A/33601-3-AT                                                                        Page 3
Findings and Recommendations
Section 1: APHIS Controls Over the Select Agent Program

Finding 1                              APHIS Did Not Ensure That Registered Entities Had Developed
                                       and Implemented Adequate Security Measures

                                       APHIS had not ensured that entities were fully complying with regulations
                                       regarding the development and implementation of security plans; restricting
                                       access to select agents or toxins; training for individuals authorized to
                                       possess, use, or transfer select agents or toxins; and maintaining accurate
                                       inventories. This occurred because APHIS had not performed adequate or
                                       timely reviews to ensure that security measures were implemented in
                                       accordance with the regulatory requirements. As we reported in Phase I,
                                       APHIS initially reviewed registration applications only to ensure that a
                                       security plan was submitted before granting provisional registrations. The
                                       agency did not determine the adequacy of the plans. In Phase I, we also
                                       reported that APHIS’ inspections of the entities were not thorough enough to
                                       determine whether security was adequate. As a result, select agents or toxins
                                       were vulnerable to potential theft or misuse.

                                       The Public Health Security and Bioterrorism Preparedness and Response Act
                                       of 2002, was enacted to enhance controls over dangerous biological agents
                                       and toxins. Title II, subtitle B of the Act, 6 addressed the lack of authority for
                                       the Secretary of Agriculture, under legislation effective at that time, to
                                       regulate possession of biological agents and toxins that pose a severe threat to
                                       plant or animal health. The Act requires the Secretary to both establish and
                                       enforce safeguard and security measures to prevent access to select agents.
                                       On December 13, 2002, APHIS published an interim final rule setting forth
                                       the regulations for possessing, using, and transferring select agents. The
                                       regulations addressed standards and procedures that registered entities must
                                       follow to safeguard and secure the select agents.

                                       For our Phase I review, we reported that APHIS granted provisional
                                       registrations to entities without determining whether their security plans
                                       provided adequate safeguard and security measures. During our site visits in
                                       Phase II, we found that none of the 10 entities we reviewed had fully
                                       complied with the regulations. We selected 10 of 75 entities registered with
                                       APHIS, and performed site visits to test the entities’ compliance with the
                                       regulations and to determine whether security controls were adequate and
                                       functioning. We found that security plans (1) were not based on site-specific
                                       risk assessments as required, (2) did not address critical areas required by the
                                       regulations, and (3) were not performance tested or reviewed and updated
                                       annually by the registered entities (see Finding 4).

6
    Also known as “The Agricultural Bioterrorism Protection Act of 2002.”
USDA/OIG-A/33601-3-AT                                                                                            Page 4
                                        APHIS had not performed timely reviews of security plans to determine
                                        whether the plans were sufficient and had not timely followed up with the
                                        entities to address any deficiencies. This occurred because APHIS officials
                                        believed that the regulations intention to “minimize disruption of research”
                                        took precedence over the need to fully comply with the regulations.
                                        Therefore, APHIS only reviewed the initial registration applications to
                                        determine if a security plan was submitted. APHIS did not perform more
                                        thorough reviews until several months after the initial registrations, at that
                                        time identifying significant deficiencies in the plans. For example, one entity
                                        submitted an initial registration package on March 12, 2003. The entity
                                        submitted its Biosafety and Security Plan in a subsequent submission on
                                        May 27, 2003. 7 On September 29, 2004, nearly 16 months after the
                                        registration was submitted, APHIS sent a letter to the entity with
                                        56 action-items or items needing clarification and 8 recommendations.
                                        Thirty-three of the 56 action items and 4 of the 8 recommendations related to
                                        the Biosafety and Security Plan. The remaining items and recommendations
                                        were related to the initial registration package. The APHIS letter provided the
                                        entity 10 business days to respond. However, the entity was not able to
                                        provide their response until November 19, 2004. During our site visit in
                                        December 2004, we identified significant deficiencies in the security plans,
                                        such as the lack of procedures to report and remove suspicious persons, and
                                        the lack of procedures for reporting and investigating unintentional and/or
                                        inappropriate release of select agents.

                                        Registered entities we visited expressed concerns regarding APHIS oversight,
                                        including inadequate guidance to implement the select agent rules, untimely
                                        review and response to required submissions, and insufficient timeframes for
                                        responding to APHIS inquires. Inadequate guidance and untimely reviews of
                                        security plans may have contributed to some of the deficiencies we identified.
                                        However, we noted that, in many cases, deficiencies were due to the entities
                                        not following regulatory requirements. Even though each had been inspected
                                        by APHIS for compliance with the regulations prior to our review, we
                                        identified a number of security deficiencies at the sites visited. We found that
                                        registered entities:

                                        1.    did not adequately restrict access to select agents or toxins as required by
                                              the regulations (Finding 5);

                                        2.    did not maintain adequate inventories of select agents (Finding 6); and

                                        3.    did not maintain adequate documentation concerning Biocontainment or
                                              Biosafety and Security training (Finding 7).

                                        For our Phase I review, we reported that APHIS had not established policies
                                        and procedures to ensure that inspections of the registering entities’ security
7
    In 9 CFR §121.0(d), the RO was required to submit the security section of the Biosafety and Security Plan by June 12, 2003.
USDA/OIG-A/33601-3-AT                                                                                                             Page 5
                   measures were consistent and thorough. Inspections performed by APHIS did
                   not provide clear documentation concerning the nature or extent of
                   deficiencies, and did not always conclude as to whether security measures
                   implemented by the registered entities were adequate. We also reported that
                   although some inspections revealed deficiencies, APHIS did not always
                   notify the registered entities of the results of the inspections and address, in
                   writing, the nature of the deficiencies or the requirements for followup.

                   Subsequent to our site visits, final regulations were issued on March 18,
                   2005. The final regulations provide additional guidance to entities to help
                   ensure that the provisions of the Act and applicable regulations are fully
                   implemented. For example, the final regulations provide clarification for
                   issues such as inventory control requirements for select agents, and state that
                   additional guidance will be forthcoming for issues such as security required
                   for select agents or toxins. In addition, APHIS and CDC are working with
                   interagency groups and security experts to draft a document that will provide
                   additional guidance about the security required for select agents or toxins.
                   Even though the guidance was to be available in spring 2005, it was not
                   completed as of August 12, 2005.

                   In the Phase I report, we recommended that APHIS establish formal
                   procedures for performing security inspections at the registered entities in
                   order to ensure that the inspections are consistent and thorough, and that
                   documented and supportable conclusions are made concerning the adequacy
                   of security measures. We concluded that the issues identified during our site
                   visits in Phase II confirm the need for thorough and consistent inspections as
                   recommended in the Phase I report. Because of the noncompliance issues we
                   identified in Findings 4 through 7, we are recommending that APHIS
                   re-inspect the registered entities. Re-inspections of entities’ security plans
                   and procedures should be done using formal procedures established to ensure
                   consistent and thorough reviews (as recommended in Phase I, Audit No.
                   33601-2-At). The inspections should also ensure that conclusions are drawn
                   regarding whether security is adequate, and corrective action plans should be
                   developed and followup performed to ensure deficiencies are corrected.

Recommendation 1

                   Re-inspect registered entities to ensure compliance with regulations regarding
                   the security over select agents. The inspections should be done using formal
                   written procedures to ensure consistent and thorough reviews. In our Phase I
                   report we recommended that formal procedures be developed.




USDA/OIG-A/33601-3-AT                                                                       Page 6
                   Agency Response. In its December 2, 2005, response, APHIS stated:

                          Per direction from the Office of Management and Budget,
                          APHIS must coordinate entity inspection policy with * * *
                          CDC. To date, CDC has not agreed to total re-inspection of all
                          current registrants. Also, good regulatory policy and resource
                          constraints dictate that we adopt a risk based re-inspection
                          policy. APHIS will re-inspect a registered entity upon
                          submission of either an amendment, which includes the use of
                          an agent or activity of higher risk and/or work in a new area.
                          Also, APHIS will re-inspect entities when evidence suggests
                          there is a compliance issue or when an entity has requested
                          amendments that results in a "higher risk" level of activity.
                          This will be effective immediately. In the event that there are
                          no compliance issues or registration amendments, we will
                          re-inspect each no less than every * * * [2] to * * * [3] years
                          consistent with the registration schedule. This combination of
                          risk-based and regularly scheduled re-inspection plan would
                          provide sufficient security and result in most entities being
                          re-inspected within the next * * * [2] years. All re-inspections
                          will be conducted under formal procedures.

                   OIG Position. We cannot accept management decision for this
                   recommendation. The Secretary of Agriculture is required to establish and
                   enforce security measures to prevent access to select agents. Our review at
                   10 registered entities identified several compliance issues that were not
                   identified during inspections performed prior to our visits to the registered
                   entities. APHIS inspections, if performed in a consistent and through manner,
                   should provide primary evidence for determining if adequate security has
                   been implemented at the registered entities. Without such inspections, the
                   agency would not have the means to gather sufficient evidence that would
                   “suggest there is a compliance issue” at a specific registered entity.
                   Therefore, APHIS should re-inspect registered entities using formal written
                   procedures to provide for consistent and thorough inspections and to gather
                   sufficient evidence to conclude whether adequate security measures have
                   been implemented. We agree that in performing the re-inspections, a
                   risk-based strategy would be prudent so that entities possessing select agents
                   with a higher level of risk would be re-inspected first. In order to reach
                   management decision for this recommendation, please provide a plan for re-
                   inspecting APHIS registered entities using formal procedures and the
                   timeframes for completing the re-inspections.




USDA/OIG-A/33601-3-AT                                                                        Page 7
Finding 2                             APHIS Had Not Kept Up-to-date Data Pertaining to Individuals
                                      Who Have Access to Select Agents or Toxins

                                      APHIS had not updated its list of individuals authorized to access select
                                      agents or toxins. On October 8, 2004, APHIS provided us a current list of
                                      approved individuals granted access to select agents or toxins (authorized
                                      list). However, we found that the APHIS list did not always agree with the
                                      lists maintained by the registered entities. We found that APHIS had not
                                      updated the list for 5 of the 10 entities we reviewed. This occurred because
                                      (1) APHIS did not update the lists when notified by the entities that certain
                                      individuals no longer had access to the select agents or toxins or (2) the
                                      entities did not notify APHIS of individuals no longer having access. We
                                      found that APHIS had not developed written policies and procedures for
                                      accurately and promptly updating authorized lists subsequent to entity
                                      requests that individuals needing access be added to the list or that the access
                                      status for individuals no longer needing access be changed from active to
                                      inactive. As a result, APHIS does not have accurate information to use in
                                      monitoring registered entities’ compliance with requirements for restricting
                                      access to the select agents.

                                      The Act 8 states that APHIS regulations shall include provisions to ensure that
                                      registered entities provide access to select agents or toxins to only those
                                      individuals whom the RO determines have a legitimate need to handle or use
                                      such agents and toxins. In accordance with requirements of the Act, APHIS’
                                      regulations 9 state that, for each individual identified by the RO as having a
                                      legitimate need to handle or use select agents, the RO must submit the
                                      individual’s name and identifying information to APHIS 10 and the U.S.
                                      Attorney General. The U.S. Attorney General then determines whether the
                                      person is a “restricted person” as defined in the Act. 11 Once the determination
                                      is made, APHIS is notified, and in-turn, notifies the registered entity of
                                      whether access is granted or denied. The legislation and regulations further
                                      provide that the names of individuals having access to select agents be
                                      submitted to the U.S. Attorney General for review at least every 5 years.
                                      APHIS is responsible for notifying the RO if an individual is granted full or
                                      limited access, or denied access, to biological agents or toxins, and will notify
                                      the individual if he/she is denied access or granted only limited access to such
                                      agents or toxins. 12 APHIS regulations state that the RO must immediately
                                      notify the agency when access is terminated and the reasons for termination. 13

8
  Section 212(e)(2) and (3) of Public Law 107-188.
9
  APHIS regulations 7 CFR 331.10(d) and 9 CFR 121.11(d)
10
   For overlap agents, names can either be submitted to APHIS or CDC.
11
   Restricted persons are defined by the Act as individuals within certain categories as defined by various United States Code citations. These categories
include people who have committed certain crimes, people who have known ties to domestic or international terrorist organizations, and persons
determined to be an agent of a foreign power.
12
   APHIS regulations 7 CFR 331.10(g) and 9 CFR 121.11(g), issued December 13, 2002.
13
   APHIS regulations 7 CFR 331.10(k) and 9 CFR 121.11(l).
USDA/OIG-A/33601-3-AT                                                                                                                             Page 8
                                      APHIS maintains (on an electronic spreadsheet) the listing of individuals that
                                      have been approved or denied access to select agents or toxins. In confirming
                                      the accuracy of the spreadsheet with the list maintained by the 10 entities
                                      visited, 14 we found that the agency’s spreadsheet provided to us on October 8,
                                      2004, was not up to date for 5 of the 10 entities.

                                      •         At one entity, we compared the list provided by APHIS (dated
                                                October 2004) to a listing provided by the registered entity dated
                                                June 2004. We found that seven individuals shown as active on
                                                APHIS’ list were not included on the entity’s list. The RO told us that
                                                periodic reports were sent to APHIS updating the entity’s authorized
                                                list with individuals either being added or deleted from the list. For
                                                one of the individuals on the list, we were given a letter to APHIS
                                                dated June 3, 2004, telling the agency to remove the person from their
                                                active list. The entity neither had documentation showing that the
                                                other six inactive individuals had been reported to APHIS, nor had
                                                documentation giving the reasons access was terminated. We were
                                                told by entity officials that access was terminated for the individuals
                                                because they were no longer working with the agents because of
                                                transfers to other positions within the entity or they had taken jobs
                                                with other entities.

                                      •         At another entity, we found inaccuracies and out-of-date data when
                                                we compared the access list prepared and maintained by the entity and
                                                the list APHIS provided the entity subsequent to requested
                                                modifications. We found discrepancies in identification numbers,
                                                employee status (active/inactive), and names. For example, the
                                                institution submitted documentation to APHIS to remove an
                                                individual from the authorized list in August 2004. APHIS
                                                acknowledged the request during the same month. However, APHIS’
                                                November 2004 list, showed the individual as current with
                                                unrestricted access. Entity officials stated that errors appearing on the
                                                authorized list from APHIS were common. Based on our evaluation,
                                                we concluded that APHIS is not reviewing or maintaining adequate
                                                controls over the authorized list.

                                      Although it is the responsibility of the RO to ensure only APHIS approved
                                      individuals are granted access to select agents or toxins, it is incumbent upon
                                      APHIS to promptly and accurately update the list based on requested changes
                                      from the registered entities. Registered entities seek to add individuals to the
                                      list or to show individuals inactive once access to the select agents is
                                      terminated. Since we identified instances where APHIS had not adequately
                                      updated the authorized lists subsequent to requested changes

14
     Site visits were performed in November and December 2004.
USDA/OIG-A/33601-3-AT                                                                                             Page 9
                   (additions/deletions), we concluded that APHIS’ controls over the authorized
                   lists do not lend assurance that the list is adequately updated to reflect the
                   most current information presented to APHIS by the registered entities. By
                   not ensuring accurate and up-to-date lists of approved individuals, APHIS
                   cannot assure the public that access is restricted to approved individuals and
                   that select agents or toxins are secure and adequately safeguarded from theft
                   and/or unauthorized use.

Recommendation 2

                   Develop and implement written policies and procedures to ensure authorized
                   lists are accurately and promptly updated. The procedures should include
                   requiring the entities to verify APHIS records, and either provide corrections
                   or attest to the accuracy of the list.

                   Agency Response. In its December 2, 2005, response, APHIS stated:

                          APHIS agrees with this recommendation. The National Select
                          Agent Registry (NSAR) will become functional by
                          December 30, 2006. The NSAR will contain all of the
                          information found on the registration application documents,
                          which include all of the authorized individuals. The * * * RO
                          and the alternate responsible official (ARO) will have access
                          to this system in order to update and verify the accuracy of the
                          data. APHIS will request programming modifications that will
                          allow notices to be sent out quarterly to entities that require
                          verification of their section 4B. This will be completed by
                          December 30, 2006.

                   OIG Position. We accept management decision for this recommendation.




Finding 3          APHIS Had Not Properly Safeguarded Sensitive Data Regarding
                   Individuals Authorized to Possess, Use, and Transfer Select
                   Agents or Toxins

                   APHIS had not adequately safeguarded sensitive security and personal
                   information pertaining to individuals authorized to possess, use, or transfer
                   select agents or toxins. We identified two instances where information
                   regarding authorized individuals was provided to the wrong registered entity.
                   This occurred because of human error, which we attributed in part to the fact
                   that APHIS had not developed a national database of registered entities
                   containing critical information including the names of individuals authorized


USDA/OIG-A/33601-3-AT                                                                    Page 10
                                     to access select agents at the particular entity. 15 Until the national database is
                                     developed, APHIS will have to continue to rely on a mix of manual records
                                     and computerized spreadsheets maintained separately while administering the
                                     select agent program. Also, APHIS had not established internal controls, in
                                     the form of policies and procedures, to prevent such occurrences. As a result,
                                     there is a greater risk that sensitive information is inadvertently disclosed in
                                     violation of the Act.

                                     According to the Act, USDA (among other agencies) shall not disclose
                                     information that identifies the select agent or toxin possessed, used, or
                                     transferred by a specific person or “discloses the identity or location of a
                                     specific person.” 16

                                     We identified two instances where APHIS provided personal and security
                                     information to the wrong registered entities. This occurred because of human
                                     error. Currently information regarding security clearances for individuals is
                                     maintained on an electronic spreadsheet, separate from hardcopy files
                                     maintained for each registered entity. The data has not been incorporated into
                                     a single database of registered entities. In our Phase I report, we reported that
                                     APHIS had not developed a national database of registered entities, as
                                     required by the Act. The purpose of the database is to facilitate the
                                     identification of the agents and their location, as well as their source. In our
                                     Phase I report, we concluded that the absence of the database diminishes
                                     APHIS’ ability to effectively monitor compliance with safety and security
                                     requirements. During our Phase II review, we concluded that the absence of
                                     the database contributed toward APHIS erroneously providing sensitive
                                     information to the wrong entities. If the information had been maintained as
                                     part of a comprehensive and organized database, the likelihood of this type of
                                     error could have been reduced.

                                     In Phase I, we also reported that, because APHIS had not designated a single
                                     RO for the select agent program, the agency had not issued instructions or
                                     procedures for implementing the Act. The absence of agency policies and
                                     procedures weakens APHIS’ ability to ensure applicable laws and regulations
                                     are followed. Internal control comprises plans, methods, procedures, and
                                     actions to meet objectives such as ensuring compliance with applicable laws
                                     and regulations. 17 For Phase II, we concluded that the establishment of an
                                     adequate system of internal controls could have prevented the two violations
                                     of the Act we identified during our site visits.

                                     •          On November 15, 2004, APHIS mistakenly faxed a list of all of the
                                                people approved for access (the authorized list) at a non-profit
                                                research hospital along with their identification numbers, which are

15
   This condition was identified in our Phase I report (Audit No. 33601-2-At).
16
   Public Law 107-188, June 12, 2002, section 212, (h) (1) (A).
17
   “Standards for Internal Control in the Federal Government,” published by the General Accountability Office in November 1999.
USDA/OIG-A/33601-3-AT                                                                                                             Page 11
                          used by the FBI for background checks to one of the academic
                          institutions in our sample. Two of the academic institution’s
                          employees that were to be added to the list of employees approved to
                          work with select agents or toxins were included on the erroneously
                          faxed list from the research hospital. The following day, APHIS faxed
                          a new list with only the academic institution’s approved individuals,
                          including the two newly approved employees.

                   •      Also on November 15, 2004, APHIS mistakenly faxed one page
                          listing individuals for another institution. The list was a printout of
                          APHIS’ electronic spreadsheet, and included the individuals’ names,
                          identification numbers, other personal information, and the access and
                          security status of the individuals (i.e., restricted or unrestricted
                          access). The academic entity’s officials told us that they informed
                          APHIS officials of the mistake and were told to return the list.

Recommendation 3

                   Develop and implement internal controls designed to prevent the release of
                   sensitive security information associated with registered entities.

                   Agency Response. In its December 2, 2005, response, APHIS stated:

                          APHIS agrees with this response. The NSAR will prevent
                          accidental release of another entity’s information. For those
                          entities that are not using the NSAR to register or amend their
                          application, a protocol will be developed that requires second
                          party verification of any sensitive information that is sent to an
                          entity. This protocol will be developed by March 30, 2006.

                   OIG Position. We accept management decision for this recommendation.




USDA/OIG-A/33601-3-AT                                                                      Page 12
Section 2: Registered Entities’ Compliance With Select Agents or Toxin Regulations

                    During this phase of our audit, we also made field visits to 10 registered
                    entities where select agents or toxins are used or stored to examine registered
                    entities’ compliance with the regulations. The purpose of the visits was to
                    determine whether APHIS had adequate controls to ensure compliance with
                    the regulations. We identified compliance issues including:

                    1. Biosafety/Biocontainment and Security Plans did not comply with
                       regulatory requirements;
                    2. Registered entities did not adequately restrict access to select agents or
                       toxins as required by the regulations;
                    3. Registered entities did not maintain adequate documentation concerning
                       Biocontainment/Biosafety and Security training; and
                    4. Registered entities did not maintain adequate inventories of select agents.

                    Even though APHIS inspected 9 of the 10 registered entities and CDC had
                    inspected the other entity prior to our field visits, the conditions we noted
                    were seldom identified by the inspections. For Phase I of our review, we
                    reported that APHIS had not established policies and procedures to ensure
                    that inspections of the registering entities’ security measures were consistent
                    and thorough, and that APHIS inspections were not sufficiently documented
                    to show whether registered entities had implemented adequate safeguard and
                    security measures. We also reported that inspections performed by APHIS
                    did not provide clear documentation concerning the nature or extent of
                    deficiencies, and did not always conclude as to whether security measures
                    implemented by the registered entities were adequate.

                    We concluded that more thorough inspections would help APHIS better
                    identify and address compliance issues at the registered entities. Therefore,
                    several of our recommendations in Finding Nos. 4 through 7 address ways of
                    improving the inspection process. Because the Act requires APHIS and CDC
                    to develop and implement procedures to share responsibilities for inspecting
                    entities that handle overlap agents, we met with officials from the HHS-
                    Office of Inspector General (OIG) to coordinate our recommendations.
                    HHS-OIG conducted reviews of entities registered with CDC and identified
                    issues with inspections similar to those identified during our reviews of
                    entities registered with APHIS.




USDA/OIG-A/33601-3-AT                                                                     Page 13
Finding 4                           Biosafety/Biocontainment and Security Plans Did Not Comply
                                    With Regulatory Requirements

                                    During our site visits, we noted a number of deficiencies regarding the
                                    entities’ security plans. We found that security plans (1) were not based on
                                    site-specific risk assessments as required, (2) did not address critical
                                    requirements required by the regulations, and (3) were not performance
                                    tested or reviewed and updated annually. Registered entities in our sample
                                    gave various reasons for deficiencies in their plans, including the lack of
                                    sufficient guidance from APHIS. Based on the results of our site visits and
                                    the deficiencies we found in the security plans, we concluded that APHIS had
                                    not provided the entities with timely feedback on the sufficiency of the plans,
                                    and had not provided sufficient guidance for completing the plans in
                                    accordance with the regulations. Because of the deficiencies in the plans,
                                    there is reduced assurance that security measures at registered entities are
                                    adequate to mitigate risks of unauthorized access to the agents or toxins.

                                    The Act requires that USDA establish and enforce safety procedures for
                                    select agents or toxins, including appropriate skills to handle agents and
                                    toxins, and proper laboratory facilities to contain and dispose of agents and
                                    toxins. In addition, the Act requires that USDA establish and enforce
                                    safeguard and security measures to prevent access to select agents or toxins
                                    for use in domestic or international terrorism or for any other criminal
                                    purpose. Pursuant to section 212(e)(1) of the Act, the safeguard and security
                                    requirements must be commensurate with the risk posed by the agent or
                                    toxin. As a condition of registration, the RO must develop and implement a
                                    Biocontainment/Biosafety 18 and Security Plan. The plans must contain
                                    sufficient information and documentation to describe the biosafety and
                                    containment procedures, and the security systems and procedures.

                                    As we reported in our Phase I report (Audit No. 33601-2-At), APHIS granted
                                    provisional registrations to entities without determining whether their
                                    security plans provided adequate safeguard and security measures.
                                    Regulations allowed for provisional registration if an entity could show by
                                    November 12, 2003, that the entity had provided the Attorney General with
                                    all of the documentation required to conduct security risk assessments and
                                    had otherwise met all of the requirements of the regulations. However,
                                    APHIS officials stated that the regulation’s intention to “minimize disruption
                                    of research” took precedence over the need to fully comply with security
                                    requirements by the deadline. Consequently, APHIS reviewed registration
                                    applications only to ensure a security plan had been submitted, not that it met
                                    the requirements of the regulations. As a result, the agency had not taken

18
   APHIS regulation 7 CFR 331.11 requires a biocontainment plan for plant pathogens. APHIS regulation 9 CFR 121.12 requires a biosafety plan for
animal and overlap agents and toxins.
USDA/OIG-A/33601-3-AT                                                                                                                    Page 14
                   sufficient action to ensure that registered entities have implemented adequate
                   safeguard and security measures to comply with the legislation and
                   regulations.

                   In promulgating the interim final rule, APHIS concluded that because
                   different agents and toxins pose differing degrees of risk, depending on
                   factors such as their escape potential and availability of a suitable habitat (for
                   plant-related agents) and transmission and effect of exposure to the agent or
                   toxin (for overlap and animal agents or toxins), it would be counterproductive
                   to attempt to prepare a detailed list of prescriptive requirements for entities
                   (i.e., a ‘‘one size fits all’’ design standard). Instead, APHIS established a set
                   of performance standards to be addressed while considering the degree to
                   which they were appropriate to the risks presented by a particular agent or
                   toxin, given its intended use and the location of the entity. Therefore, risk
                   assessments were crucial to the development of security plans sufficient to
                   mitigate vulnerabilities and fully address the established performance
                   standards. We found that 7 of the 10 entities did not base their security plans
                   on site-specific risk assessments.

                   To address the performance standards and comply with the regulations,
                   entities’ Biocontainment/Biosafety and Security Plans must describe critical
                   requirements such as, inventory control procedures, personnel suitability for
                   those individuals with access to select agents or toxins, physical security, as
                   well as other areas. We found that 7 of the 10 entities lacked documented
                   policies and procedures for critical requirements identified in the regulations.

                   Finally, to ensure that the plans continue to meet the entities’ containment
                   and security needs, APHIS requires that the plans be reviewed, performance
                   tested, and updated annually. The plans must also be reviewed and revised, as
                   necessary, after any incident. We found that 4 of the 10 entities either did not
                   performance test the security plans or did not annually review and update
                   their plans.

                   The final rule, issued on March 18, 2005, stated that APHIS and CDC were
                   working with interagency groups and security experts to draft a document to
                   provide additional guidance about the security required for select agents or
                   toxins. Even though the guidance was to be available in spring 2005, it was
                   not completed as of August 12, 2005. The 5th edition of the “Biosafety in
                   Microbiological and Biomedical Laboratories”, which is under development,
                   will provide additional guidance on laboratory security.




USDA/OIG-A/33601-3-AT                                                                       Page 15
                                      Security Plans Were Not Based on Site-Specific Risk Assessments

                                      We found that 7 of the 10 entities we reviewed did not base their security
                                      plans on site-specific risk assessments. APHIS regulations 19 require that
                                      entities’ security systems and procedures must be designed according to a
                                      site-specific risk assessment and must provide graded protection in
                                      accordance with the threat posed by the agent or toxin. The regulations state
                                      that a site-specific risk assessment should involve a threat assessment and
                                      risk analysis in which threats are defined, vulnerabilities examined, and risks
                                      associated with those vulnerabilities are identified. The interim final rule
                                      required that security systems and procedures must be tailored to address
                                      site-specific characteristics and requirements, ongoing programs, and
                                      operational needs and must mitigate the risks identified by the assessments.
                                      The following are examples of the deficiencies we found.

                                      •          One registered entity based its security systems and procedures on
                                                 security measures in place prior to September 11, 2001. The entity’s
                                                 officials claimed that lack of guidance from APHIS regarding specific
                                                 requirements for site-specific risk assessments and the costs of having
                                                 a risk assessment performed by an outside consultant were barriers to
                                                 completing a formalized risk assessment. APHIS’ inspection checklist
                                                 prepared October 2003 showed that the entity’s security plan was
                                                 based on a site-specific risk assessment.

                                      •          At another entity for which a site-specific risk assessment was not
                                                 prepared, we found that the security plan described physical security
                                                 measures that included guarded entrance gates and perimeter fencing.
                                                 However, the facility did not have these security measures. The plan
                                                 actually describes security features at another of the entity’s facilities.
                                                 The entity had used the plan from another facility, had not performed
                                                 a site-specific risk assessment for that location, and had not addressed
                                                 the vulnerabilities at that particular site. APHIS has prepared two
                                                 inspection checklists, including one in October 2003 and one in
                                                 December 2003. The October 2003 checklist indicated that the
                                                 security plan was based on a site-specific risk assessment, and the
                                                 December 2003 checklist indicated that the risk assessment was not
                                                 site specific.

                                      •          The RO at one entity said that the entity had not had the resources to
                                                 perform a site-specific risk assessment. He said that the entity was
                                                 just starting an assessment at the time of our audit. During our visit to
                                                 this entity, we found that vials of Exotic Newcastle Disease were
                                                 stored in a freezer in an area with unrestricted access. The location of
                                                 the freezer was not identified in the entity’s security plans, and there

19
     Title 7 CFR 331.11(a)(2) and 9 CFR 121.12(a)(2), issued December 13, 2002.
USDA/OIG-A/33601-3-AT                                                                                              Page 16
                                                 was no determination of the risk associated with storing the select
                                                 agent in an area that was accessible to unauthorized individuals.
                                                 APHIS’ inspection checklist prepared in October 2003 showed that
                                                 the entity’s security plan was based on a site-specific risk assessment.

                                      APHIS’ interim rule dated December 13, 2002, stated that risk assessments
                                      should include a threat assessment and risk analysis in which threats are
                                      defined, vulnerabilities examined, and risks associated with those
                                      vulnerabilities are identified. It also stated that the security systems and
                                      procedures must be tailored to address site-specific characteristics and
                                      requirements and must mitigate risks identified by the risk assessments.
                                      However, APHIS’ final rule issued on March 18, 2005, deleted these
                                      requirements and substituted the requirement that the security plan be
                                      designed according to a site-specific risk assessment and provide graded
                                      protection in accordance with the risk of the select agent or toxin, given its
                                      intended use.

                                      Even though we agree that the site-specific risk assessments should provide
                                      protection in accordance with the risk of the select agent or toxin, we believe
                                      that the risk assessments should not only take into account the “intended use”
                                      of the biological agent, but should address vulnerabilities associated with the
                                      potential unintended use, such as the consequences of terrorists acquiring a
                                      particular agent and using it as a weapon. This would be in line with the
                                      intent of the Act. The Act gave the Secretary of Agriculture authority to
                                      regulate the possession of biological agents that, through acts of bioterrorism,
                                      could have a devastating impact on the domestic agricultural economy. 20 In
                                      addition, the Act specifically requires the establishment and enforcement of
                                      safeguard and security measures to prevent access to such agents and toxins
                                      for use in domestic or international terrorism or for any other criminal
                                      purpose. Therefore, APHIS should ensure that entities conduct risk
                                      assessments that adequately address vulnerabilities and mitigate risks of
                                      unauthorized individuals accessing and acquiring select agents for use in
                                      terrorism.

                                      Security Plans Did Not Address Critical Requirements in the Regulations

                                      During field visits we found that security plans for 7 of the 10 registered
                                      entities’ lacked documented policies and procedures for critical requirements
                                      identified in the regulations. To address the performance standards and
                                      comply with the regulations, the Biocontainment/Biosafety and Security
                                      Plans must describe inventory control procedures, personnel suitability for
                                      those individuals with access to select agents or toxins, physical security, and
                                      cyber security. The plan must also contain provisions for securing the area
                                      (e.g., card access, key pads, locks) and protocols for changing access

20
     House of Representatives Conference Report No. 107-481, dated May 21, 2002.
USDA/OIG-A/33601-3-AT                                                                                           Page 17
                   numbers or locks following staff changes; procedures for loss or compromise
                   of keys, passwords, combinations, etc.; procedures for reporting suspicious
                   persons or activities, loss or theft of select agents or toxins, release of select
                   agents or toxins, or alteration of inventory records; provisions for the control
                   of access to containers where select agents or toxins are stored; provisions for
                   routine cleaning, maintenance, and repairs; and procedures for reporting and
                   removing unauthorized persons. We observed the following.

                   •      One entity claimed that a staff vacancy resulted in elements of the
                          security plan not being developed. The RO stated that the biosafety
                          officer who was responsible for conducting the risk assessment had
                          resigned and the position had remained vacant for over a year. The
                          entity’s plan lacked procedures for reporting incidents, such as
                          releases of select agents, and security breaches. The plan also did not
                          contain security training procedures. A September 23, 2004, letter
                          from APHIS also recommended that the entity develop a sign-in/out
                          log for after-hour and weekend activity employees; expand card-key
                          access controls to all select agent areas; develop restricted access
                          policy and procedures support units, such as maintenance and
                          custodial staff; and to complete comprehensive incident response
                          plans for the select agents. In contrast to the September 2004 letter, an
                          APHIS inspection checklist prepared in October 2003 showed that the
                          entity’s security plan contained all the critical elements required.

                   •      At another entity, we found that critical requirements were missing
                          from the security plans, including procedures for (1) notifying APHIS
                          and CDC when individuals’ access was terminated, (2) changing
                          access numbers or locks when staff left, (3) addressing the loss or
                          compromise of keys or combinations, (4) reporting suspicious
                          activities, and (5) removing unauthorized individuals from select
                          agent or toxin areas. APHIS’ inspection checklist prepared in
                          October 2003 showed that the entity’s security plan contained all the
                          critical elements required.

                   Security Plans Were Not Performance Tested or Reviewed and Updated as
                   Required

                   We found that 4 of the 10 entities either did not performance test the security
                   plans or did not annually review and update their plans. Regulations require
                   that Biocontainment/Biosafety and Security Plans must be reviewed,
                   performance tested, and updated annually. The plan must also be reviewed
                   and revised, as necessary, after any incident. The following examples are
                   some of the conditions noted for entities that did not performance test or did
                   not annually review and update plans.



USDA/OIG-A/33601-3-AT                                                                       Page 18
                   •      One entity had not updated the security plan annually as required by
                          regulation. The last update of the plan was the version submitted on
                          June 2003. APHIS’ security checklist prepared in October 2003
                          showed that the security plan had not been tested or updated.
                          However, the RO stated that the plan had not been updated because
                          they thought it was adequate since they had not received any feedback
                          from APHIS. However, during the time of our site visit, the entity
                          received a letter from APHIS, dated November 15, 2004, noting a
                          number of deficiencies in the plan and recommending sign-in/out
                          procedures and protocols be developed for after-hours activities,
                          electronic monitoring and access controls be installed in select agent
                          activity areas, locks be installed in specified laboratory rooms, and the
                          number of individuals having access to the select agent activity areas
                          be verified (noting that a substantial number of people appear to have
                          access to some areas).

                   •      At another institution, the assistant RO stated that they periodically
                          checked entryways and prohibited areas to ensure that doors were
                          locked. However, there were no procedures to review and evaluate
                          other procedures in the security plan. APHIS’ security checklist
                          prepared in October 2003 did not include any deficiencies regarding
                          testing and updating security plans.

                   The final regulations published on March 18, 2005, require that drills or
                   exercises must be conducted at least annually to test and evaluate the
                   effectiveness of the plan. The plan must be reviewed and revised, as
                   necessary, after any drill or exercise and after an incident. APHIS will need
                   to ensure that these new requirements are included in the registered entities’
                   procedures and determine that the procedures have been implemented when
                   APHIS inspections are performed.

Recommendation 4

                   Provide registered entities specific guidance for performing risk assessments,
                   including instructions for performing site-specific risk analyses. APHIS’
                   guidance should provide advice on how to perform threat assessments and
                   identify vulnerabilities, and suggest security measures that could help to
                   mitigate risks.

                   Agency Response. In its December 2, 2005, response, APHIS stated:

                          APHIS agrees with this recommendation. CDC has requested
                          that APHIS participate in a meeting on March 6 - 8, 2006, in
                          order to provide better guidance to entities in the following
                          areas: agent specific risk/threat assessment; IT and records
                          security; risk mitigation and screening of individuals; and
USDA/OIG-A/33601-3-AT                                                                     Page 19
                          compliance issues and tools. The meeting, as currently
                          planned, will include security specialists from the federal and
                          state governments. Using the materials generated from this
                          meeting, APHIS (and CDC) will provide guidance to entities
                          on risk assessment by December 1, 2006. Finalization is
                          dependent on receiving concurrence from CDC.

                   OIG Position. We cannot accept management decision for this
                   recommendation. Although the planned meeting with CDC should be helpful
                   in establishing guidance to entities for establishing security procedures, the
                   response addressed “agent specific risk/threat assessments” rather than
                   site-specific risk assessments. We found that 7 of 10 entities we visited did
                   not perform site-specific risk assessments to address the physical
                   characteristics of the areas where the select agents were used or stored. In
                   order to reach management decision, please indicate whether the guidance
                   will include instructions on performing risk assessments based on the
                   physical characteristics of each site (e.g., laboratories and storage areas)
                   housing select agents. Also, we cannot accept management decision for
                   corrective action that is contingent upon receiving concurrence from CDC. In
                   this circumstance, the recommendation must remain open until a detailed
                   time-phased corrective action plan has been developed.

Recommendation 5

                   In developing policies and procedures for reviewing and inspecting entities’
                   compliance with the regulations, APHIS should include steps to ensure
                   registered entities base their security plans on a site-specific risk analysis.
                   Site specific risk analyses should be examined to ensure that entities perform
                   threat assessments that address its vulnerabilities. APHIS should also ensure
                   that security plans are developed that will mitigate the risks identified and
                   help to prevent unauthorized individuals from accessing and acquiring select
                   agents or toxins for use in terrorism. APHIS’ inspection reports should
                   conclude whether entities’ security plans were based on the results of
                   site-specific risk analyses performed in accordance with the guidance issued.

                   Agency Response. In its December 2, 2005, response, APHIS stated:

                          APHIS agrees with this recommendation. In response to
                          Recommendation 4, APHIS is working with CDC to provide
                          guidance to entities regarding the risk assessment process.
                          Based on these guidance documents, improved guidance for
                          inspectors will be documented in the CDC/APHIS Operational
                          Plan. This will be completed by December 1, 2006.
                          Finalization is dependent upon receiving concurrence from
                          CDC.

USDA/OIG-A/33601-3-AT                                                                    Page 20
                   OIG Position. We cannot accept management decision for this
                   recommendation. Although the response states that APHIS agrees with the
                   recommendation, it does not specifically address whether APHIS will include
                   steps in the inspections to (1) ensure that registered entities base security
                   plans on site-specific risk analysis, (2) ensure that registered entities perform
                   threat assessments that address vulnerabilities, (3) ensure that security plans
                   developed by registered entities provide measures to mitigate risks identified
                   in risk assessments, and (4) conclude whether registered entities’ security
                   plans were based on the results of site-specific risk analysis performed in
                   accordance with the guidance issued. Also, we cannot accept management
                   decision for corrective action that is contingent upon receiving concurrence
                   from CDC. In this circumstance, the recommendation must remain open until
                   a detailed time-phased corrective action plan has been developed.

Recommendation 6

                   In developing policies and procedures for reviewing and inspecting entities’
                   compliance with the regulations, APHIS should include steps to verify that
                   the entities’ security plans have thoroughly addressed all critical areas
                   identified by the regulations. APHIS’ inspection reports should conclude
                   whether each critical area was adequately addressed.

                   Agency Response. In its December 2, 2005, response, APHIS stated:

                          APHIS agrees with this recommendation. A check list will be
                          developed by June 30, 2006, that the APHIS Security
                          Specialist will use when each entity is reviewed.

                   OIG Position. We cannot accept management decision for this
                   recommendation. Although the response states that APHIS agrees with the
                   recommendation, it does not specifically address whether APHIS will include
                   steps in the inspections to verify that entities’ security plans have thoroughly
                   addressed all critical areas identified by the regulations. In addition, security
                   plans should be reviewed during APHIS inspections to ensure that the plans
                   being used by the entity contain all critical areas required by regulations.

Recommendation 7

                   In developing policies and procedures for reviewing and inspecting entities’
                   compliance with the regulations, APHIS should include steps to verify that
                   that entities are conducting and documenting annual performance tests of
                   their security plans, and are updating plans based on the results of the
                   performance tests, drills, or exercises. APHIS’ inspection reports should
                   conclude whether annual performance tests were performed and whether their
                   results were appropriately utilized in updating security plans.

USDA/OIG-A/33601-3-AT                                                                      Page 21
                   Agency Response. In its December 2, 2005, response, APHIS stated:

                          APHIS agrees with this recommendation. To provide better
                          guidance to inspectors, APHIS and CDC will document
                          operational procedures for review of annual drills and
                          exercises conducted by an entity. These procedures will be
                          finalized by September 30, 2006. Finalization is dependent
                          upon receiving concurrence from CDC.

                   OIG Position. We cannot accept management decision for this
                   recommendation. Although the response states that APHIS agrees with the
                   recommendation, it does not specifically address whether APHIS will include
                   steps in the inspections to verify that entities are conducting and documenting
                   annual performance tests of their security plans and updating the plans based
                   on the results of the tests. Also, we cannot accept management decision for
                   corrective action that is contingent upon receiving concurrence from CDC. In
                   this circumstance, the recommendation must remain open until a detailed
                   time-phased corrective action plan has been developed.




Finding 5          Registered Entities Did Not Adequately Restrict Access to Select
                   Agents or Toxins As Required by the Regulations

                   During our site visits, we found that 6 of the 10 entities’ did not adequately
                   restrict access to select agents. This occurred because three entities did not
                   provide APHIS the names of all individuals so they could be cleared by
                   Department of Justice for access to the select agents, and three entities did
                   not implement adequate controls for restricting access to areas where select
                   agents were stored or used. At one of the three entities that did not provide
                   APHIS the names of all persons having access to the select agents, an
                   unauthorized individual was allowed to perform experiments with the select
                   agent. By not adequately restricting access to select agents, these entities
                   increased the risk that select agents could be acquired and used in domestic or
                   international terrorism.

                   The Act requires that the regulations include provisions to ensure that the
                   registered entities provide access to select agents or toxins to only those
                   individuals that have a legitimate need to handle or use such agents or toxins.
                   APHIS regulations 7 CFR 331.10(a) and 9 CFR 121.11(a) provide that an
                   individual may not have access to select biological agents or toxins unless
                   approved by APHIS or, for overlap agents, APHIS or CDC. Regulations
                   require the RO to ensure that only approved individuals within the entity
                   have access to select agents or toxins. In addition, the RO must request such
                   access for only those individuals who have a legitimate need to handle or use

USDA/OIG-A/33601-3-AT                                                                    Page 22
                                      select agents or toxins, and who have the appropriate training and skills to
                                      handle such agents or toxins.

                                      The following are examples where registered entities were not adequately
                                      restricting access to select agents.

                                      •          At one entity, two unauthorized individuals were granted access to a
                                                 laboratory with select agents, and one of the two individuals was
                                                 given direct access to the select agent, without approval from the RO,
                                                 and without clearance by the Attorney General. The RO was not
                                                 aware that unauthorized individuals were given access to the
                                                 laboratory. The principal investigator 21 was aware of the situation and
                                                 approved their access without clearance from the RO. One individual
                                                 was allowed to conduct experiments using Brucella abortus. 22
                                                 APHIS’ inspection checklist prepared in August 2004 did not cite any
                                                 deficiencies regarding access to the select agents.

                                      •          At another entity, we found that two individuals having access to
                                                 sensitive information (i.e., locations of select agents, individuals
                                                 granted access to the agents, security procedures) had not been
                                                 reviewed by the Attorney General. APHIS’ interim final rule issued
                                                 December 13, 2002, did not require the RO to submit the names of
                                                 individuals having access to sensitive information for clearance by
                                                 APHIS and the Attorney General. During our site visit in
                                                 November 2004, we discussed our concerns with the entity that the
                                                 individuals had access to information that could allow them to gain
                                                 access to the select agents. The entity agreed, and submitted the
                                                 names to APHIS. The final regulations published on March 18, 2005,
                                                 added that an individual is deemed to have access if he/she has the
                                                 ability to gain possession of a select agent or toxin. We also found
                                                 that four of the entity’s employees still had access to the laboratory
                                                 where select agents are used even though they no longer had a
                                                 legitimate need to access that area. This occurred because the entity
                                                 did not have controls in place to properly monitor electronic card
                                                 authorization, removal, and verification (periodic review of the access
                                                 log). As a result, the university has reduced assurance that dangerous
                                                 biological agents and toxins, retained for research or held in culture
                                                 repositories, are secure from unauthorized use or loss.

                                      •          During our visit to one facility, we found that 62 vials and 15 tissue
                                                 cultures of Exotic Newcastle Disease 23 were stored in a long-term
                                                 storage freezer in the basement. The freezer was locked with a

21
  The principal investigator is the researcher in charge of the particular research project.
22
  Brucella abortus is a contagious disease affecting cattle and bison. It is an overlap agent that also affects humans.
23
  According to an APHIS fact sheet dated January 2003, Exotic Newcastle Disease is probably one of the most infectious diseases in poultry. It is a fatal
viral disease affecting all species of birds.
USDA/OIG-A/33601-3-AT                                                                                                                         Page 23
                                             common padlock. The select agent was stored in an area that had not
                                             been identified on the entity’s security plans, and was not in a secure
                                             area. The basement storage room was not locked during the day, and
                                             was accessible by many individuals who had not been approved to
                                             access select agents. The researcher stated that the vials had been
                                             moved to the storage area because they were not needed and were to
                                             be destroyed. The freezer had not been accessed in 2 to 3 months
                                             prior to our visit. Because of our inquiries concerning security over
                                             the select agent, the RO took action to destroy all but 15 vials of the
                                             agent, which were to be transferred to another registered entity.
                                             APHIS’ inspection checklist prepared in August 2004 did not cite any
                                             deficiencies regarding access to the select agents. There was nothing
                                             in the inspection documentation to indicate whether this freezer had
                                             been identified and examined during the August 2004 visit by APHIS.

                                   •         Although one registered entity maintained a visitor’s logbook of
                                             access to areas housing select agents, many of the logs were missing
                                             critical data, such as the date of the visit, time of the visit, or the
                                             signature of the visitor’s escort. No one, such as a security guard, was
                                             monitoring the entries in the access logbook. Therefore, visitors
                                             accompanying authorized individuals may be gaining access into labs
                                             containing select agents or toxins without the knowledge of institution
                                             officials. We reviewed 476 recorded visits in the logbook and found
                                             that 27 were missing the date, 16 were missing time in and/or the time
                                             out, and 38 were missing an escort signature. Institution officials
                                             agreed that the visitor logs should be complete and up to date, but
                                             they stated that they were not overly concerned because an authorized
                                             individual must escort any visitor and only authorized individuals
                                             would have a key to enter the restricted areas. However, without a
                                             complete and accurate logbook, there is no accountability that only
                                             authorized individuals accompanied all visitors to the lab. During
                                             multiple APHIS inspections in October 2003, APHIS cited several
                                             deficiencies relating to restricting access such as the lack of security
                                             guards or employees present to control access into the facility.
                                             However, the inspection checklist showed that the entity had adequate
                                             controls regarding visitors. There was no indication that APHIS
                                             examined entries in the visitor’s logbook during the inspection.

                                   •         At one entity, we were informed that the access logbook for periods
                                             prior to January 2004 was missing. The entity had reported to APHIS
                                             possession of the select agents (Mycoplasma capricolum and
                                             Mycoplasma mycoides) 24 in July 2002. The two researchers with
                                             access to the agent had transferred to another entity that was not
                                             registered to possess select agents. The laboratory manager had also

24
  Mycoplasma capricolum causes contagious caprine pleuropneumonia in goats and Mycoplasma mycoides causes contagious bovine pleuropneumonia in
cattle, both highly infectious diseases.
USDA/OIG-A/33601-3-AT                                                                                                              Page 24
                          transferred to another position at the same entity and no longer had
                          access to the select agent. Prior to their transfer, one of the two
                          researchers reported to the RO an unexplained discrepancy in the
                          inventory records. The records were adjusted to reduce the select
                          agent inventory by two vials. In a report to the RO, one of the former
                          researchers wrote that the discrepancy was unexplained, but
                          concluded that it was probably a clerical error since other such
                          discrepancies had occurred. The report also concluded that there was
                          limited access to the select agents and it was “extremely unlikely that
                          someone could locate or procure these select agents surreptitiously.”
                          The researcher’s report stated that they did not consider the
                          discrepancy “to be of any concern regarding a breach of security.”
                          The missing access logbook covered the period during which the
                          discrepancy was noted, as well as another 10 months after the report
                          was submitted to the RO. APHIS relied on an inspection performed
                          by CDC in March 2003 even though the report did not make clear
                          which laboratories were inspected and what was contained in those
                          laboratories. There was no evidence that this storage area had been
                          examined and no similar issued identified by CDC.

Recommendation 8

                   In developing policies and procedures for reviewing and inspecting entities’
                   compliance with the regulations, APHIS should include steps to compare its
                   list of authorized individuals with the names of individuals having access to
                   areas with select agents. This would include an examination of log books or
                   other documented entries, as well as questioning researchers concerning
                   which individuals can access the area. Inspectors should also examine the
                   completeness and accuracy of access log books. Inspection reports should
                   state whether security measures are adequate to restrict access to select agents
                   only to authorized individuals.

                   Agency Response. In its December 2, 2005, response, APHIS stated:

                          APHIS agrees with this recommendation. To provide better
                          guidance to inspectors, APHIS and CDC will document
                          operational procedures that improve methods for verification
                          of access controls used by the entity. These procedures will be
                          finalized by September 30, 2006. Finalization is dependent
                          upon receiving concurrence from CDC.

                   OIG Position. We cannot accept management decision for this
                   recommendation. Although the response states that APHIS agrees with the
                   recommendation, it does not specifically address whether APHIS will include
                   steps in the inspections to compare its list of authorized individuals with the
                   names of individuals having access to areas with select agents by examining
USDA/OIG-A/33601-3-AT                                                                     Page 25
                    log books or interviewing researchers concerning access to the areas. The
                    response also does not address whether APHIS’ inspections would include an
                    examination of log books or other documented entries to examine the
                    completeness and accuracy of access records. In addition, we cannot accept
                    management decision for corrective action that is contingent upon receiving
                    concurrence from CDC. In this circumstance, the recommendation must
                    remain open until a detailed time-phased corrective action plan has been
                    developed.

Recommendation 9

                    In developing policies and procedures for reviewing and inspecting entities’
                    compliance with the regulations, APHIS should include steps to identify and
                    examine all areas where select agents are used or stored to ensure that access
                    to those areas are properly secured. Inspection reports should specifically
                    identify all areas containing select agents, state whether the areas are
                    identified in the security plan and included in the site-specific risk
                    assessments, and conclude as to whether security for each area is adequate.

                    Agency Response. In its December 2, 2005, response, APHIS stated:

                           APHIS agrees with this recommendation. To provide better
                           guidance to inspectors, APHIS and CDC will document
                           operational procedures for this phase of the inspection in the
                           CDC/APHIS Operational Plan. These procedures will be
                           finalized by September 30, 2006. Finalization is dependent
                           upon receiving concurrence from CDC.

                    OIG Position. We cannot accept management decision for this
                    recommendation. Although the response states that APHIS agrees with the
                    recommendation, it does not specifically address whether APHIS will include
                    steps in the inspections to identify and examine all areas where select agents
                    are used or stored to ensure that the areas are properly secured. The response
                    also does not address whether the inspection reports will identify all areas
                    having select agents, state whether the areas are identified in the security plan
                    and included in the site-specific risk assessment, and conclude as to whether
                    security is adequate for each area. In addition, we cannot accept management
                    decision for corrective action that is contingent upon receiving concurrence
                    from CDC. In this circumstance, the recommendation must remain open until
                    a detailed time-phased corrective action plan has been developed.

Recommendation 10

                    APHIS should conduct an investigation into the missing access logbook at
                    the affected entity and, based on the outcome, make a determination as to the
                    appropriateness of the entity’s registration status.
USDA/OIG-A/33601-3-AT                                                                       Page 26
                                      Agency Response. In its December 2, 2005, response, APHIS stated:

                                                APHIS agrees with this recommendation and will request that
                                                APHIS’ Investigative and Enforcement Services staff conduct
                                                an investigation of this finding and submit its findings to the
                                                Associate Administrator by March 1, 2006.

                                      OIG Position. We accept management decision for this recommendation.




Finding 6                             Registered Entities Did Not Maintain Adequate Inventories of
                                      Select Agents

                                      We found that 3 of the 10 registered entities in our sample did not adequately
                                      account for their inventories of select agents or toxins. This occurred because
                                      entity officials at one registered entity had not required researchers to keep
                                      track of select agent or toxin usage, and because of inaccurate inventory
                                      recordkeeping. Even though the entities were inspected by APHIS or CDC
                                      prior to our site visits, the inspection checklists did not identify the inventory
                                      deficiencies. As a result, without adequate accountability of select agent or
                                      toxin inventories, select agents may be lost or used for unauthorized
                                      purposes.

                                      APHIS regulations 25 provided that the RO must maintain complete records of
                                      information necessary to give an accounting of all of the activities related to
                                      select agents. Such records must include accurate and current inventory
                                      records (including source and characterization data). We noted the following.

                                      •         One registered entity did not have inventory controls in place to track
                                                select agents. The current researcher maintained short hand records of
                                                the agents or toxins on hand and in use. This occurred because the
                                                researchers have not been required to maintain these records in the
                                                past and the entity had not developed and implemented an inventory
                                                system in compliance with current regulations. A detailed inventory
                                                system did not exist in recent years. As a result, there is no way to
                                                confirm exact amounts of each agent on hand at any given time to
                                                determine if there has been an incident of theft or loss. Additionally,
                                                the entity cannot readily provide an accounting of all current and past
                                                activities involving the agents they have been handling and storing.
                                                APHIS’ inspection checklist prepared in October 2003 showed that
                                                the entity had a systematic approach to maintain a current,
                                                comprehensive system to track select agents.

25
     Title 7 CFR 331.14 and 9 CFR 121.15, issued December 13, 2002.
USDA/OIG-A/33601-3-AT                                                                                          Page 27
                   •      At one entity, we found a repository containing 152 vials of biological
                          material of which 31 vials were identified as select agents (26 vials
                          were Mycoplasma capricolum and 5 were Mycoplasma mycoides);
                          20 vials as a non-select agent; and 101 vials for which the RO could
                          not determine whether the biological material was or was not a select
                          agent. We questioned the RO about the vials and she stated that they
                          were part of a large repository that the registered entity had intended
                          to ship to another entity. However, the other entity was not registered
                          and the vials remained in storage. The RO stated that they were not
                          sure what the other vials are so they are treating them as if they were
                          select agents even though some of them may not be. Currently, these
                          vials are stored in a freezer. We were told that the inventory had not
                          been used since it was acquired. APHIS relied on an inspection
                          performed by CDC in March 2003 even though the report did not
                          make clear which laboratories were inspected and what was contained
                          in those laboratories. There were no inventory deficiencies reported
                          for this storage area.

                   •      At another entity, we selected a sample of 10 entries in the inventory
                          log. We traced the entries to the associated vials of select agent in the
                          storage freezer. The researcher could not locate two vials. We were
                          later told by the RO that the two missing vials were incorrectly
                          recorded in the inventory since one was not a select agent and the
                          other was incorrectly identified because inventory log numbers were
                          transposed when the entry was made in the log. The RO
                          acknowledged that the accounting for select agents needed to be
                          improved. In response to the finding, the entity drafted a procedure to
                          better account for select agents, which was awaiting approval and
                          implementation. APHIS’ inspection checklist prepared in
                          October 2003 did not indicate any deficiencies regarding inventories.

                   APHIS amended the regulations to require the maintenance of an accurate,
                   current inventory for each toxin held and for each select agent held in
                   long-term storage (placement in a system designed to ensure viability for
                   future use, such as in a freezer or lyophilized materials). The final regulations
                   also provide more information about the types of information that must be
                   included in the inventory records for each select agent or toxin. Under the
                   new regulations, an inventory for a select agent must include the name and
                   characteristics of the agent, the quantity acquired from another entity, where
                   stored, when moved from storage and by whom, purpose of use, transfer
                   records, etc., while an inventory for a toxin must include the name and
                   characteristics of the toxin, the quantity acquired from another entity, the
                   initial and current quantity, where stored, when moved from storage and by
                   whom, transfer records, etc.



USDA/OIG-A/33601-3-AT                                                                      Page 28
Recommendation 11

                    In developing policies and procedures for reviewing and inspecting entities’
                    compliance with the regulations, APHIS should include steps to verify that
                    the entities have established and implemented inventory controls and perform
                    procedures to ensure that inventory records are accurate and up to date.

                    Agency Response. In its December 2, 2005, response, APHIS stated:

                           APHIS agrees with this recommendation. To provide better
                           guidance to inspectors, APHIS and CDC will document
                           operational procedures for this phase of the inspection in the
                           CDC/APHIS Operational Plan. These procedures will be
                           finalized by September 30, 2006. Finalization is dependent
                           upon receiving concurrence from CDC.

                    OIG Position. We cannot accept management decision for this
                    recommendation. Although the response states that APHIS agrees with the
                    recommendation, it does not specifically address whether APHIS will include
                    steps in the inspections to verify that the entities have established and
                    implemented inventory controls and whether inspectors whether inspectors
                    will perform procedures to ensure that inventory records are accurate and up
                    to date. Also, we cannot accept management decision for corrective action
                    that is contingent upon receiving concurrence from CDC. In this
                    circumstance, the recommendation must remain open until a detailed time-
                    phased corrective action plan has been developed.

Recommendation 12

                    For the entity with 152 vials of biological material (31 select agents, 20 non-
                    select agents, and 101 unidentified agents), APHIS should conduct an
                    investigation into the discrepancies, and work with the entity to determine
                    whether the vials should be destroyed or transferred to another registered
                    entity.

                    Agency Response. In its December 2, 2005, response, APHIS stated:

                           APHIS agrees with this recommendation and has investigated
                           this finding. The entity was storing unknown agents as “select
                           agents.” The select agent regulations do not prevent this. Thus,
                           no violation of the regulations have occurred.

                    OIG Position. We cannot accept management decision for this
                    recommendation. Although the response states that APHIS agrees with the
                    recommendation and has investigated this issue, it does not specifically state
                    whether APHIS and the registered entity have worked together to determine
USDA/OIG-A/33601-3-AT                                                                     Page 29
                                   the disposition of the vials. In order to reach management decision for this
                                   recommendation, please provide information on what steps have been taken
                                   or are being taken to destroy or transfer the vials of select agents.




Finding 7                          Registered Entities Did Not Maintain Adequate Documentation
                                   Concerning Biocontainment/Biosafety and Security Training

                                   We found that 6 of the 10 entities had not documented
                                   Biocontainment/Biosafety and Security training as required, and 2 of the
                                   6 entities did not provide the required training for all individuals having
                                   access to the select agents or toxins. APHIS regulations require that entities
                                   provide safety/containment and security training 26 and that records of the
                                   training be complete and up to date. 27 We found that the ROs were not fully
                                   aware of the requirements related to annual staff training specified in the
                                   regulations and did not recognize the need to document the limited training
                                   that was provided. APHIS had not provided guidance on what constitutes
                                   appropriate training and the need for accurate training records. As a result,
                                   although staff may have the educational and work experience backgrounds
                                   needed to perform the basic technical requirements of operating a biological
                                   laboratory, there is no assurance that they have received training on current
                                   technological     changes     or    procedural    requirements       concerning
                                   biocontainment, biosafety and security procedures regarding select agents or
                                   toxins. Without such training, not only is the safety and security of
                                   individuals working with the select agents or toxins at risk, but also the select
                                   agents or toxins may be vulnerable to misuse or mishandling.

                                   According to the regulations 28 , the RO must provide appropriate training in
                                   containment and security procedures to all individuals with access to select
                                   agents or toxins. Training must be provided to an individual at the time the
                                   individual is assigned to work with a select agent or toxin, and refresher
                                   training provided annually. The RO must maintain complete, up-to-date
                                   records of information necessary to give an accounting of all of the activities
                                   related to select agents or toxins listed, including training records for the
                                   individuals having access to the pathogens. 29

                                   The following are examples of our observations regarding security training.

                                   •          At one entity, there was insufficient documentation to show that
                                              individuals were provided the proper training. Because of the large
                                              number of individuals having access to the select agents or toxins, we

26
   APHIS regulations 7 CFR §331.12 and 9 CFR §121.13, issued December 13, 2002.
27
   APHIS regulations 7 CFR §331.14(a)(3) and 9 CFR §121.15(a)(3), issued December 13, 2002.
28
   APHIS regulations 7 CFR 331.12 and 9 CFR 121.13.
29
   APHIS regulations 7 CFR 331.14 and 9 CFR 121.15.
USDA/OIG-A/33601-3-AT                                                                                       Page 30
                           were not able to confirm during our site visit, that everyone had the
                           required training. In response to our inquiries, the RO developed a
                           checklist to be used to track future training. At the time of our visit,
                           the checklist had not been incorporated into the entity’s standard
                           operating procedures. APHIS performed multiple inspections at this
                           registered entity in October 2003, and from October to
                           December 2004. Checklists prepared during these inspections all
                           showed that training was properly documented.

                    •      At another entity, the initial training was not documented, and the
                           entity was not providing annual refresher training as required. The
                           entity’s biosafety officer stated that the researchers were required to
                           read the laboratory safety plan when they were initially assigned to
                           work with any biological agents or toxins. There was no specific
                           training for containment or security procedures aside from the
                           requirement that individuals with access to select agents or toxins
                           read policies and directives in the security plan. There was no process
                           to confirm that the individuals had read the required procedures or
                           had otherwise been informed about its provisions relating to
                           containment and security procedures. APHIS’ inspection checklist
                           prepared in August 2004 showed that annual security awareness
                           training was provided to all employees and that the training was
                           properly documented.

                    We noted that regulations do not define what “appropriate training” would
                    represent, and according to one entity’s RO, APHIS has not provided any
                    specific guidance on what would meet the requirement of “appropriate
                    training”. APHIS had not issued any guidance regarding training, other than
                    the regulations. We concluded that training and documentation of training is
                    not being provided consistent treatment at the registered entities we visited. It
                    is the responsibility of the RO at each registered entity to ensure that
                    individuals who handle or use select agents or toxins have the appropriate
                    training and skills.

                    Final regulations published on March 18, 2005, state that a record of the
                    training provided to each individual must be maintained. The record must
                    include the name of the individual, the date of training, a description of the
                    training provided, and the means used to verify that the employee understood
                    the training.

Recommendation 13

                    In developing policies and procedures for reviewing and inspecting entities’
                    compliance with the regulations, APHIS should include steps to verify that
                    the entities have provided annual training, including required security


USDA/OIG-A/33601-3-AT                                                                       Page 31
                   training, to all individuals authorized to access select agents, and have
                   documented the training as required.

                   Agency Response. In its December 2, 2005, response, APHIS stated:

                          APHIS agrees with this recommendation. To provide better
                          guidance to inspectors, APHIS and CDC will document
                          operational procedures for this phase of the inspection in the
                          CDC/APHIS Operational Plan. These procedures will be
                          finalized by September 30, 2006. Finalization is dependent
                          upon receiving concurrence from CDC.

                   OIG Position. We cannot accept management decision for this
                   recommendation. Although the response states that APHIS agrees with the
                   recommendation, it does not specifically address whether APHIS will include
                   steps in the inspections to verify that entities have provided annual training,
                   including required security training, to all individuals having access to select
                   agents. Also, the response does not state whether inspectors will determine if
                   the training has been documented as required by the regulations. In addition,
                   we cannot accept management decision for corrective action that is
                   contingent upon receiving concurrence from CDC. In this circumstance, the
                   recommendation must remain open until a detailed time-phased corrective
                   action plan has been developed.




USDA/OIG-A/33601-3-AT                                                                     Page 32
Scope and Methodology
                   This report presents the results of the second phase of our audit work to
                   determine how effectively APHIS has implemented the select agent program.
                   During the second phase of the audit, we examined registered entities’
                   compliance with the select agent regulations and assessed APHIS’ oversight
                   of the entities. Our fieldwork was conducted at the APHIS Headquarters in
                   Riverdale, Maryland, and at 10 judgmentally selected laboratories. The
                   period of review was calendar year 2003 through current operations.
                   Fieldwork was conducted during the period October 2004 through
                   April 2005.

                   To accomplish our audit objectives for this second phase, we performed the
                   following audit procedures. At APHIS Headquarters in Riverdale, Maryland,
                   we examined select agent registration files and registered entities’
                   biocontainment (plants)/biosafety (animals) and security plans in order to
                   judgmentally select 10 registered entities for review. Our selection criteria
                   included knowledge gleaned from Phase I of this audit, as well as previous
                   audits, select agents or toxins possessed by the registered entities, geographic
                   considerations and type of entity (e.g., commercial, non-profit, etc.). Included
                   in our sample of 10 registered entities were 5 academic institutions;
                   2 commercial companies; 1 Federal laboratory; 1 State diagnostic laboratory;
                   and, 1 non-profit research hospital. At each selected registered entity, we
                   performed the following steps.

                           Interviewed the ROs and alternate ROs to gain an understanding of
                            each entities implementation of the select agents or toxins regulations,
                            as well as compliance with the regulations.

                           Evaluated registered entities’ biocontainment (plants)/biosafety
                            (animals) and security plan (Plan). We examined each plan for
                            compliance with regulatory requirements including procedures for –

                            o   inventory control;
                            o   physical security;
                            o   personnel security and suitability;
                            o   accountability for select agents or toxins;
                            o   security training;
                            o   transfer of select agents or toxins;
                            o   response to emergencies; and
                            o   reporting incidents, injuries, and breaches.

                           Evaluated the entities’ procedures for restricting access to select
                            agents or toxins.

USDA/OIG-A/33601-3-AT                                                                      Page 33
                           Evaluated physical security measures in place for each laboratory
                            where select agents or toxins were stored and/or used.

                           Evaluated the entities’ and laboratories’ inventory control procedures.

                           Evaluated the entities’ policies and procedures for transferring select
                            agents or toxins.

                           Evaluated the entities’ policies and procedures to notify APHIS or
                            CDC in the event of theft, loss, or release of select agents or toxins.

                           Assessed the accuracy, adequacy and completeness of the records
                            required to be kept by each RO, including –

                            o Biocontainment/Biosafety and Security Plan;
                            o A current list of all individuals with access to select agents or
                              toxins;
                            o Accurate and current inventory records (including select agent or
                              toxin source and characteristic data);
                            o Permits and transfer documents issued by APHIS;
                            o Security records (e.g., transactions from access control systems,
                              visitor logs); and
                            o Biosafety, containment, and security incident reports.

                   We conducted this audit in accordance with generally accepted government
                   auditing standards.




USDA/OIG-A/33601-3-AT                                                                      Page 34
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 5




USDA/OIG-A/33601-3-AT                      Page 35
Exhibit A – Agency Response
                              Exhibit A – Page 2 of 5




USDA/OIG-A/33601-3-AT                      Page 36
Exhibit A – Agency Response
                              Exhibit A – Page 3 of 5




USDA/OIG-A/33601-3-AT                      Page 37
Exhibit A – Agency Response
                              Exhibit A – Page 4 of 5




USDA/OIG-A/33601-3-AT                      Page 38
Exhibit A – Agency Response
                              Exhibit A – Page 5 of 5




USDA/OIG-A/33601-3-AT                      Page 39
Informational copies of this report have been distributed to:

Administrator, APHIS (9)
       ATTN: Agency Liaison Officer
Government Accountability Office (1)
Office of Management and Budget (1)
Office of the Chief Financial Officer (1)
       Director, Planning and Accountability Division
